<html>
<title> - OPTIONS FROM THE REVIEW OF U.S. HUMAN SPACEFLIGHT PLANS COMMITTEE</title>
<body><pre>[Senate Hearing 111-494]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-494
 
   OPTIONS FROM THE REVIEW OF U.S. HUMAN SPACEFLIGHT PLANS COMMITTEE

=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 16, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE

54-289                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       DAVID VITTER, Louisiana, Ranking
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
MARK WARNER, Virginia


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 16, 2009...............................     1
Statement of Senator Nelson......................................     1
Statement of Senator Hutchison...................................     1
    Prepared statement...........................................     2
Statement of Senator Vitter......................................     4

                               Witnesses

Norman R. Augustine, Retired Chairman and CEO, Lockheed Martin 
  Corporation and Chair, Review of U.S. Human Spaceflight Plans 
  Committee......................................................     5
    Prepared statement...........................................     7

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    31
Response to written questions submitted by Hon. Tom Udall to 
  Norman R. Augustine............................................    31


   OPTIONS FROM THE REVIEW OF U.S. HUMAN SPACEFLIGHT PLANS COMMITTEE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 2009

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon.
    This is an exceptionally important topic, and I think that 
buzzer might tell us that a vote is starting.
    [Laughter.]
    Senator Nelson. No, it is not. It is a quorum call. 
Hallelujah.
    We really want to peel back the onion and get into a lot of 
the specifics of the extraordinary work that you have done, Mr. 
Augustine. And thank you for the public service that you have 
rendered to this country over a lifetime that you have in 
Government and in the private sector, and then thank you for 
this unpaid service, enormous public service that you have 
rendered.
    And we are looking forward to hearing from you, and I want 
to thank the Ranking Member of the full Committee, Senator 
Hutchison, for coming, and I want to turn to her for her 
opening comments.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    Mr. Augustine, you have come through for our country one 
more time. The Rising Above the Gathering Storm report has been 
really the Bible for those of us who want to promote science 
education, math, engineers to graduate from our colleges, and 
we thank you for that.
    And now, you have done a great study about the future of 
NASA and space exploration. And I just want to commend you.
    It was our Committee--it was Senator Nelson and myself--who 
had the United States' part of the Space Station designated as 
a national laboratory in the 2005 NASA Bill. And we did that 
because we saw so many NASA research funding shortages, and we 
knew that if we had it designated in that way that others could 
come in and do research--universities, Federal agencies, 
corporations--in the future. And in fact, that is beginning to 
happen.
    We are just on the cusp now of realizing the capabilities 
of this enormous investment that we have been making in the 
International Space Station. We are just beginning to realize 
it, and yet now we are talking about shutting down the Shuttles 
and not being able to fully equip and utilize the Space 
Station. And I commend you for the report that says we must 
utilize it in order to have the investment pay off that we have 
made in this International Space Station.
    But you also pointed out that without at least $3 billion, 
which was the suggestion of your committee, that without that 
increase, that we are facing some great shortages not only in 
being able to use the Space Station correctly and allowing it 
to reach its full potential, but also the gap in our ability to 
put humans in space, not only for the Space Station, but also 
for our national security. That gap will definitely happen 
unless we are able to put the money in that will allow us to do 
one of the options that you suggest.
    I think I can speak for myself and say that I am hoping 
that we will be able to extend the Shuttle to narrow that gap. 
But I thank you for the great effort that you have put in, and 
I will want to ask you questions.
    I thank you, Mr. Chairman, for holding this hearing, and 
also, Mr. Chairman, for your complete commitment to NASA and 
space exploration. Without your commitment and the vigor that 
you have shown, I think sometimes maybe Congress would have 
lagged behind in making sure that we are doing what we need to 
do to stay in the forefront of utilizing space.
    So I thank you for calling the hearing. I thank you, Mr. 
Augustine, for leading the panel. And I will look forward to 
questions.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you Mr. Chairman. Mr. Augustine, you have come through for 
our country one more time. The Rising above the Gathering Storm report 
has been important for those of us who want to promote science 
education, math, engineers to graduate from our colleges and we thank 
you for that.
    And now, you have done a great study about the future of NASA and 
space exploration, and I just want to commend you. Know that it was our 
Committee, Sen. Nelson and myself, who had the American Space Station 
designated as a national laboratory.
    And we did that because we saw so many funding shortages and we 
knew that if we had it designated in that way, others could come in and 
do research; universities, Federal agencies, and corporations in the 
future. In fact, that's beginning to happen now.
    We are just on the cusp of realizing the capabilities of this 
enormous investment that we have been making in the International Space 
Station.
    Yet, now we're talking about shutting down the Shuttles and not 
being able to fully equip and utilize and use the Space Station and I 
commend you for the report that says we must utilize it in order to 
have the investment pay off that was made in this International Space 
Station.
    But your report also pointed out that without $3 billion, we will 
be facing some shortages, not only in being able to use the Space 
Station correctly and allowing it to reach its full potential, but also 
the gap in our ability to put humans in space for the Space Station.
    This will also affect our national security unless we are able to 
put the money in and do one of the options you suggest. I hope we will 
be able to send a Shuttle to narrow that gap, but I thank you for the 
great effort that you have put in.
    I thank you Mr. Chairman for holding this hearing and also Mr. 
Chairman, for your complete commitment to NASA and space exploration. 
Without your commitment and the vigor you have shown, Congress would 
have lagged behind in making sure that we are taking the right steps to 
stay in the forefront of utilizing space.
    So, I thank you for calling the hearing and I thank you Mr. 
Augustine for leading the panel and I will look forward to questions.

    Senator Nelson. As you give us this report, Mr. Augustine, 
I think it is going to become increasingly apparent that the 
moment of truth for the future of NASA's human spaceflight is 
here. As you and others will point out, there is only one 
person that can lead America's human spaceflight program, and 
that is the President.
    The work that your panel has done is in preparation for the 
President making a decision. Kay would like to lead it. I would 
like to lead the space program, but a Senator can't do it. 
Charlie Bolden, the Administrator of NASA, can't lead it. The 
human spaceflight program of this country can only be led by 
the elected leader of this country because he sets the 
priorities.
    As a result of what you have said, if he is going to be 
wanting to increase and continue human adventure into the 
cosmos, he is going to have to pony up more money in his Office 
of Management and Budget. It has been stated from this dais 
over and over in the last decade that NASA was not getting 
enough money to do everything that it was asked to do. That is 
obvious now that we are about to complete the Space Station and 
shut down the Space Shuttle, and we don't have the next rocket 
ready.
    If we are going to have a program, it is going to have to 
be the President who is going to have to put the juice to the 
program.
    Second, is that the President is going to have to 
articulate to the country the vision of why it is important for 
us to go beyond low-Earth orbit, a subject that your panel has 
broached, but only the President can articulate. A majority of 
Americans don't even remember when we landed on the Moon and 
what an extraordinary accomplishment that was. So, why do we 
want to venture out?
    Only the President can articulate as we move from here, 
severely underfunded NASA that is way behind the timeline and 
doesn't have another rocket ready as a follow-on to the Space 
Shuttle, to whatever that vision is that the President wants us 
to go on beyond low-Earth orbit. He is going to have to say how 
we take care of the workforce, this extraordinary workforce 
that is so talented and has so much historical memory and are 
not all ready to retire.
    The President is going to have to set priorities of how do 
we not only keep some of them in work and able to get to the 
vision that I hope the President will articulate, but providing 
the means on a daily basis.
    I would hope that when the President lays that vision out, 
that he is going to tell what NASA has done in 50 years. Not 
only the extraordinary feats in outer space, but what has 
happened here on Earth as a result of America's space program. 
The technologies that have been developed in health and 
medicine and transportation and public safety have made the 
lifestyles that we live better. Advances in our home, at the 
office, and in the environment are results of NASA spinoffs and 
microminiaturization. That is not even to speak of what NASA 
has done for computer technology and industrial productivity.
    You can say it until you are blue in the face. I can say 
it. Administrator Bolden can say it, but the American people 
are going to listen only to the President.
    What you have laid out is a blueprint, a menu for the 
President to make choices, and it is my fervent hope that he is 
going to say we are going to put the juice into it. We are 
going to have a vision that we are going beyond low-Earth 
orbit, and in the process, we are going to nourish that 
workforce so that we have them ready when we do the next huge 
leap for mankind.
    Senator Vitter?

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, for convening this 
really important hearing and thanks to you, Mr. Augustine, for 
all of your work and the work of your committee. It is very, 
very important. You have undertaken a big challenge, and we 
appreciate all of your service and those of your committee 
members.
    I look forward to reviewing the full final report when it 
is available, but I appreciate the summary and your testimony 
today. And as you can tell, we thought it was important to 
start this discussion in earnest sooner rather than later. So 
that is what today is about, and I appreciate your being here.
    You have made it really clear and underscored what so many 
of us and others have been saying that the funding profile for 
the exploration program has been inadequate, and it would be 
virtually impossible to sustain under the flat line out-year 
funding profile that was included with the original 2010 
request. And I think that is one key point that all of us want 
to underscore and amplify.
    Our other challenge, of course, is to clearly define what 
the Nation's human space exploration policy should be, what 
programs and tools we need to implement it, and exactly what 
financial resources are required to make it all work.
    Another of the key messages of your committee, I believe, 
is that if we intend to have a viable human space exploration 
program in this country, we are going to need to step up to the 
plate and provide funds necessary to make it work, and that is 
a big part of the discussion.
    And that is important because I believe one of the key 
elements of our decisions must be having a path forward that 
makes it possible to retain our highly skilled workforce and 
not lose so much of that human capital and to sustain more 
broadly our aerospace industrial capacity. A lot of that is 
human, but it has other elements as well.
    So I look forward to exploring all those key issues with 
you, and thank you again for your work.
    Senator Nelson. Mr. Augustine, as we discussed earlier, 
your written testimony will be submitted in the record, and you 
are going to share for us in a brief way some of your comments 
so we can get right into the questions.
    I just want to say for our audience that Mr. Augustine has 
quite a pedigree. He has been a research engineer. He has been 
a program manager. He served in Government in the Office of the 
Secretary of Defense, Assistant Director of Defense Research 
and Engineering. He was Assistant Secretary of the Army, became 
Acting Secretary of the Army, and then he has served in 
academia on the faculty of Princeton.
    Obviously, everybody knows him as a former CEO, and a 
member of every advisory committee in the world. So, Mr. 
Augustine, with that pedigree, indeed, we are honored that you 
are here.

      STATEMENT OF NORMAN R. AUGUSTINE, RETIRED CHAIRMAN 
AND CEO, LOCKHEED MARTIN CORPORATION AND CHAIR, REVIEW OF U.S. 
               HUMAN SPACEFLIGHT PLANS COMMITTEE

    Mr. Augustine. Well, Mr. Chairman, thank you very much.
    Senator Hutchison, Senator Vitter, and the Members of the 
Committee, I appreciate this chance to appear on behalf of my 
colleagues on our committee and describe to you some of our 
results, and I will submit for the record my prepared statement 
and briefly summarize it now.
    You provided the proper opening, and that is that the human 
spaceflight program in America is at a tipping point right now. 
Probably more so than at any time since President Kennedy took 
the leadership to say that we should have such a program.
    Before I begin, with your permission, I would like to 
acknowledge the enormous effort and dedication of the members 
of the Committee with whom I had the privilege of serving. I 
have rarely worked with a group who put in the hours and the 
effort that this group has.
    I also would like to take note of the fact that the support 
we received from NASA was extraordinary--extremely competent 
people, very open and candid, very hard working, and very 
responsive.
    Further, we had hired as a committee The Aerospace 
Corporation to work for us as a committee independently to 
provide us with a separate view of programmatic issues, 
technical issues, cost issues, schedule, so on. And they, too, 
have been all we could have hoped.
    As you know, our committee consisted of 10 members. It was 
broadly constituted. It included scientists, engineers, 
educators, former business executives, astronauts, former Air 
Force general officers, former Presidential appointees, and so 
on--all with background in space.
    We were given only 90 days for our effort. The reason, of 
course, being to try to match it to the budget cycle. That was 
not a great deal of time to address such a difficult issue. On 
the other hand, our members didn't start from zero. We did have 
some background. But I call that to your attention because as a 
caveat, there are limitations on what we were able to do, and 
the Committee should have that in mind as you review our work.
    Our committee, and I need to really emphasize this, was 
asked to provide options, not to make a recommendation. That is 
very important because we tried to abide by that and to be very 
balanced in our assessment of the options. We have not endorsed 
any particular option.
    We have said that it seems clear to us that the ultimate 
destination for the next major step in America's human 
spaceflight program is a human landing on Mars. We have 
concluded, reluctantly and with some disappointment, that, in 
our judgment, it would not be safe to attempt such a mission at 
this point in time.
    In other words, we have concluded that the direct to Mars 
mission is not something that our Nation ought to undertake for 
safety reasons, let alone the financial impact that that would 
have.
    The various parameters we looked at made it possible to 
define over 3,000 options that we could have offered to you. We 
tried to narrow that down, for obvious reasons, and have 
narrowed it to specifically five families, and I say 
``families'' because it is possible to move an item from one 
family to another and to adjust the results if people want to 
do that. But they are representative families.
    One member of that family is the existing program as it is 
being pursued today by the Nation through NASA. Let me define 
for you what we consider to be the existing program. It is the 
program that is the basic NASA plan that NASA has provided, and 
it is the budget that we were given by the Office of Management 
and Budget.
    I won't describe to you the other four integrated options. 
You have them available, I am sure, and I will be pleased to 
address them at any time you would like. But to save time now, 
I won't do that.
    Our committee, the bottom-line conclusion at which we 
arrived--a disappointing one, frankly--is that pursuing that 
existing program is really not executable and will not lead to 
a satisfactory outcome for America's human spaceflight program. 
The reason for that is the mismatch of goals and funds. There 
is more work to do than there is support to carry out that 
work. That is always dangerous, but it is particularly in 
hazardous undertakings like human spaceflight.
    If we were to continue on the path of the existing program, 
which is one option--certainly, we could do that--let me cite 
what a few of the outcomes would be. The first is that we would 
have to launch six Shuttles in the next 12 months. One can 
question whether that would be a safe thing to have to do.
    Second, that there will be no funds to enhance the existing 
technology program to provide the basis for a successful 
program in exploration later. In addition, there will be no 
substantial funds to make use of the Space Station during the 
next five years that it would be in orbit.
    Third, we would have to de-orbit the Space Station in 
little over five years from now, after having spent over two 
decades building the Space Station and putting some 900,000 
pounds into orbit. We would complete the development of Ares 
and Ares I, in the Committee's judgment, 2 years after the 
Space Station had been splashed into the Pacific Ocean. Of 
course, one of the main reasons for Ares I was to support the 
Space Station.
    The heavy-lift launch capability, which is the thing this 
Nation really needs to get on into space, would be delayed 
until the mid to late 2020's because of the lack of funds. When 
we finally got the heavy-lift capability, based on an Ares V or 
whatever, there would be no upper stage to put on it, nor any 
lunar surface systems to use it. So, we are looking at the mid 
2030's in this case before we would be able to do any real 
exploration, in our judgment.
    That basically is the path that we are on. Our committee 
has offered other options that could give us a very exciting 
program, a program that lets us, for example, circumnavigate 
the Moon again, circumnavigate Mars, land on one of the moons 
of Mars, to dock with an asteroid, a visit to a Lagrange point, 
with a large number of events over the next 15 years.
    The problem with all the other programs that we have 
offered, the only programs that we have been able to find that 
we think are viable is that they require, roughly speaking, an 
additional $3 billion per year to carry them out. And absent 
that additional funding, I am afraid our Nation is in a 
position where human spaceflight substantially goes on hold.
    We can develop launch vehicles. Yes, we can do that. We can 
do a little technology. But there will be no really significant 
human spaceflight work, and the International Space Station 
(ISS), will come to an end five years from now.
    I would like to close with just three observations. One is 
that we have intentionally been relatively conservative in our 
estimates of cost, schedule, and performance. We do that, 
frankly, to reflect our dissatisfaction with our record as a 
profession in that area in the past.
    Second, we believe that not only are we in a current 
situation where ends don't match means or means don't match 
ends, but we believe NASA has been in that position for 
decades, and it is time that we take NASA out of that position. 
NASA is a national asset, and it is unfair to the people at 
NASA and, we believe, to the American citizens to continue in 
that circumstance. If we have to change the objectives to fit 
the means, so be it.
    And then, last, that as this Committee would know so well 
and, Mr. Chairman, you would, human spaceflight inherently 
involves risk. We should do all those things we can possibly 
think of to make human spaceflight safe. And indeed, we have 
tried to propose those things. But at the end of the day, there 
still remains nontrivial safety risk, and any nation that hopes 
to be a space-faring nation has to face up to that situation.
    And finally, I would conclude by thanking the 
Administration and you for the trust that you have put in my 
colleagues and myself to address an issue that affects what 
really is one of the great examples of America's leadership.
    And with that, Mr. Chairman, I would be happy to address 
your questions.
    [The prepared statement of Mr. Augustine follows:]

 Prepared Statement of Norman R. Augustine, Retired Chairman and CEO, 
Lockheed Martin Corporation and Chair, Review of U.S. Human Spaceflight 
                            Plans Committee
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to share with you the principal findings of the Review of 
the U.S. Human Spaceflight Plans Committee. I will speak on behalf of 
the members of our Committee and will do my best to reflect our 
consensus views. As you are aware, our final report has not yet been 
published; however, our decision-making deliberations were all 
conducted in public under FACA rules so I believe what I have to say 
will come as no surprise to anyone.
    First, I would like to acknowledge the contributions and 
extraordinary effort of each of my colleagues on the Committee. Their 
names and primary affiliations are appended to this statement. I would 
also like to acknowledge the forthright, responsive and highly 
professional support we received from NASA as well as from the 
Aerospace Corporation, the latter of which the Committee employed to 
provide independent technical and cost assessments.
    The Committee was comprised of ten members having highly diverse 
backgrounds. It included astronauts, scientists, engineers, former 
Presidential appointees, business executives, educators and an Air 
Force retired General Officer--each with considerable space experience. 
Due to the exigencies of the budget process we were asked to complete 
our task in ninety days--which we did, with the exception of finalizing 
and printing our report. The latter will be available soon.
    Our assigned task was to identify alternative courses that the U.S. 
might pursue in the area of human spaceflight. One such alternative, of 
course, is to continue the present program. As noted in the Committee's 
report, changes to ongoing programs are generally warranted only for 
compelling reasons. Each alternative identified by the Committee is 
accompanied by a discussion of its strengths and weaknesses.
    It was agreed that at least two of the alternatives would be 
compatible with the FY '10 budget plan extended through FY '20. We were 
also asked to examine the current plans for the Space Shuttle and 
International Space Station and, if appropriate offer alternatives 
thereto. It is important to note that we specifically were not asked to 
make a recommendation as to a future course of action. That decision 
is, of course, the purview of the President and the Congress.
    Before addressing destinations and architectures the Committee 
sought to identify appropriate goals for human spaceflight. There are 
many possibilities that can be cited: strengthening the economy, 
conducting science, repairing and upgrading spacecraft on orbit, 
promoting international ties, protecting against asteroids and comets, 
encouraging science education, and more. It is, however, the 
Committee's view that although each of these benefits is important in 
its own right, none can, by itself, justify the cost and risk of human 
spaceflight. Rather, the raison d'etre for such activity must, and in 
our view can, be founded upon charting a course for the expansion of 
civilization into the solar system. In so doing, one derives the 
leadership benefits of being among the world's space-faring nations--a 
nation that is committed to exploration, seeking knowledge, advancing 
engineering capabilities, inspiring its citizens, and motivating its 
young people to consider careers in science and engineering. To a not 
inconsiderable degree it is intangibles that justify the human 
spaceflight program, intangibles such as those that today help maintain 
America as a leader among the world's nations. The Apollo Program is an 
appropriate example.
    In carrying out the charge to identify options the Committee 
narrowed over 3,000 theoretically possible outcomes to a set of five 
alternative integrated space programs. These can be thought of as 
representative families, since one can interchange certain elements 
among the individual alternatives. The Committee's attempt was, of 
course, to keep the number of nominal options to a manageable size.
    The alternatives offered include the ongoing program, 
Constellation--that is, the Program of Record and the Budget of 
Record--and four primary alternatives, some having derivatives or 
``sub-cases.''
    Two of the five alternatives were in fact constrained to the 
current budget profile for human spaceflight. The first of these was 
the Program of Record; that is, today's program, modified to fly-out 
the Shuttle in 2011 rather than 2010 and including sufficient funds to 
de-orbit the International Space Station (ISS) in 2016 according to 
plan. Under this existing approach the Ares I launch vehicle and Orion 
capsule are unlikely to become available until after the ISS has been 
de-orbited. The heavy-lift vehicle, Ares V, would, in our judgment, 
become available in the late 2020s; however, there are inadequate funds 
to develop the exploration systems the Ares V is intended to support. 
The Committee concludes that this is not an executable option due to 
the incompatibility of the budget plan and the program plan.
    The Committee's review noted that the Constellation Program has 
encountered technical difficulties of the type not unexpected of 
undertakings of this magnitude--problems which, given adequate funds 
and engineering attention, should be solvable. This was not, however, a 
significant factor in the overall conclusion with respect to the 
viability of the Program of Record.
    The second of the options, also constrained to the current budget 
profile, flies-out the Shuttle in FY '11, but extends the use of the 
International Space Station for 5 years, to 2020. This option includes 
a robust technology development program--something the Committee 
believes has been lacking at NASA in recent years--and relies on 
commercial firms to launch cargo and crews to the ISS as soon as 
demonstrated capabilities exist. It includes development of a somewhat 
less capable version of the Ares V, known as the Ares V (Lite). This 
option is deemed capable of execution but cannot provide the space-
borne hardware required to support a viable exploration program. In 
fact, the Committee could find no program within the current budget 
profile that would enable a viable exploration effort.
    Given these findings, the Committee examined three options that 
exceeded the present budget plan. The most defensible funding profile, 
purely from a program execution standpoint, is one that linearly 
increases to $3B above the FY '10 guidance by FY '14 and then increases 
by an estimated annual inflation rate of 2.4 percent.
    The first of these budgetarily less constrained options is termed 
the Baseline Case. It is the present Program of Record with funds added 
to extend Shuttle operations into 2011 and, as now provided in the 
budget plan, to de-orbit the ISS in 2016. This program would permit a 
human return to the moon in the mid '20s and begin laying the 
groundwork for a flight to Mars.
    The second of the budgetarily less constrained cases is actually a 
family of variants that would extend ISS operations to 2020, provide 
funds for its de-orbit, and fund a strong technology program in support 
of ISS utilization and an eventual human landing on Mars. It would use 
commercial launch services for new access to low-earth orbit. There 
are, however, significant differences between the two variants under 
this option. The first of these variants would develop the Ares V 
(Lite) to support a human lunar landing in the mid 2020s--after which 
focus would turn to a human Mars landing. The second variant would 
extend the use of the (recertified) Space Shuttle to 2015 and be 
accompanied by the development of a Shuttle Directly-Derived heavy-lift 
vehicle in place of the Ares family--with the eventual possibility of 
in-orbit refueling. This is the only practicable option the Committee 
could find to close the at least five-year gap during which the U.S. 
will, as currently planned, rely upon Russian launch services to lift 
U.S. astronauts to the International Space Station.
    The third budgetarily less constrained case follows a rather 
different path of exploration from that heretofore pursued by the U.S. 
The Committee terms this option the ``Flexible Path'' and defines it as 
achieving periodic milestones prior to a Moon or Mars landing. These 
initial accomplishments could include a lunar fly-by, a Mars fly-by, a 
visit to a Lagrange point, an asteroid rendezvous, and possible 
landings on the moons of Mars, Phobos and Demos.
    In summary, with the existing budget plan it would be reasonable to 
extend the use of the ISS for 5 years and to conduct a robust 
technology development program. The Committee concludes that no 
rational exploratory program can be funded under the existing funding 
constraint and that plans for America's space exploration program would 
de facto be halted and human operations limited to low earth orbit.
    With the less constrained budget option, requiring approximately 
$3B per year in additional funding, a sound exploration program could 
be conducted. The reason for this seemingly ``dead space'' between the 
two budget options is, simplistically stated, that for sixty percent of 
the needed funds, one cannot go sixty percent of the way to Mars.
    Each of the implementable options that was identified has its own 
set of benefits and liabilities that the Committee has sought to 
address. The findings of this effort are discussed in the Summary 
Report. The assessment gives overarching priority to safety and, as is 
noted in the Summary Report, the Committee believes considerable 
caution is in order when comparing analytical results in this area with 
flight results. Similarly, the Committee has sought to be conservative 
in its cost estimation practices--reflecting dissatisfaction with 
historical experience on a broad spectrum of programs. Finally, in 
defining a ``Program of Record'' the Committee has relied upon NASA's 
current program plan and the President's budget profile, the latter as 
provided by the Office of Management and Budget.
    In the opinion of this Committee, as well as that of most of the 
persons with whom the Committee has had contact, NASA has for too long 
sought to operate in an environment where means do not match ends. In 
the unforgiving arena of human spaceflight this is a particularly 
hazardous policy to embrace.
    The Committee also notes that NASA has become a mature 
organization, an organization long protected from restructuring 
Centers, facilities and personnel cadres. The consequence is an 
organization with high fixed costs of the type that make budgetary 
options highly limited. While NASA is unarguably the finest space 
organization in the world and a great national asset, it is overdue for 
a thorough management assessment of the type the aerospace industry 
underwent at the end of the cold war.
    The Committee's report will contain more detailed information that 
it hopes will prove of value. On behalf of my colleagues, I thank you 
for the trust that has been placed in us to review a pursuit which for 
decades has come to be a symbol of America's leadership.
                                 ______
                                 
             U.S. Human Spaceflight Plans Committee Members
    Mr. Norman R. Augustine
    Retired Chairman and CEO
    Lockheed Martin Corporation

    Dr. Wanda M. Austin
    President and Chief Executive Officer
    The Aerospace Corporation

    Mr. Bohdan I. Bejmuk
    Chair, NASA Constellation Standing Review Board

    Dr. Leroy Chiao
    Former Astronaut, Former International Space Station Commander and 
Engineering Consultant

    Dr. Christopher F. Chyba
    Professor of Astrophysics Sciences and International Affairs
    Princeton University

    Dr. Edward F. Crawley
    Ford Professor of Engineering
    Massachusetts Institute of Technology

    Mr. Jeffrey K. Greason
    Co-founder and Chief Executive Officer
    XCOR Aerospace

    Dr. Charles F. Kennel
    Director and Professor Emeritus
    Scripps Institution of Oceanography
    University of California, San Diego

    General Lester Lyles
    United States Air Force (Retired)

    Dr. Sally Ride
    President and Chief Executive Officer
    Imaginary Lines

    Senator Nelson. And since we have a vote and have 5\1/2\ 
minutes left, we will recess the Committee. We will come right 
back and get into the questions.
    Thank you. The Committee is recessed.
    [Recessed.]
    Senator Nelson. The Committee will resume. Please excuse 
the interruption, but we were able to get two votes done on the 
floor.
    Let me turn to Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Mr. Augustine, upon finding it impossible to identify a 
viable program with the out-year budget that we have now, your 
committee suggested an annual increase of roughly $3 billion in 
NASA's top line, adjusted by inflation in future years at 2.4 
percent. Can you give us a general sense of how you all arrived 
at those numbers?
    Mr. Augustine. Senator, I would be happy to do that. We, 
first of all, analyzed the budget that we were given by OMB, 
which is today's baseline, of course. We then ran excursions.
    The first excursion we ran was one that built up from 
today's budget to a $3 billion add-on by 2014 and then goes up 
to 2.4 percent. We ran an excursion of $1.5 billion and found 
that it really made little difference as compared with the 
baseline case. We ran an excursion at $4 billion, and it gives 
you somewhat more latitude--more financial conservatism, if you 
will--than the $3 billion case but doesn't let you do anything 
significantly new. So from the various cases we ran, the $3 
billion run-out at the 2.4 percent inflation rate seemed to 
give us a very sound program.
    Senator Vitter. OK. One of the consistent points that has 
been made up to now about the retirement of the Shuttle is 
basically that you take those funds and shift them over to next 
generation of vehicle development. And that has really always 
seemed to be the rationale for the whole idea of a clear 
retirement date for the Shuttle.
    Your committee seemed to arrive at a very different 
conclusion in terms of the actual amount of financial wedge 
that would bring about. Can you describe the difference--this 
very different conclusion, and how you reached that very 
different conclusion?
    Mr. Augustine. Yes, of course. First of all, our committee 
believes that we need to fund enough in 2011 to continue 
Shuttle launches through the first six months so that we don't 
have this compression of launches and pressure that tends to 
buildup, sometimes called ``launch fever'' in the vernacular.
    The Committee--let us see. I lost my train of thought. 
Again, the question?
    Senator Vitter. Explain the very different conclusion that 
you all reached versus the mindset of stopping the Shuttle by a 
more or less date certain and then being able to shift that 
money to next generation.
    Mr. Augustine. Right. The common thinking up until now has 
been that stopping the Shuttle would free a substantial sum of 
money that, as you say, would let you do exploration in the 
future. But there are some offsets that one has to consider 
that I think probably haven't been considered adequately in the 
past.
    One of those offsets is that if you were to continue the 
Shuttle operation, you would not presumably have to pay for the 
rides on the Russian launch vehicle. So, there is an offsetting 
saving.
    In addition, as one looks at the costs of operating NASA, 
much of the overhead today gets billed to the Space Shuttle 
program just because the way the books are accounted for at 
NASA. So, if the Space Shuttle program stops, unless you make a 
major cut in NASA's overhead, and by overhead, I should say 
fixed costs rather than overhead. Unless you make a major cut 
in the fixed costs at NASA, then you have a situation where 
those costs have to be transferred somewhere, and the likely 
place for them to be transferred would be to the Constellation 
program, and so there is not really a saving. There is just a 
bookkeeping shift.
    And when you go through these various nets and a few more 
minor things, it looks like the savings by shutting down the 
Shuttle fairly hard stop is on the order of $2.5 billion a 
year, which is significantly less than some of the numbers that 
others quote.
    Senator Vitter. OK. I think I understand your reasons for 
saying that as of now, we shouldn't plan on going to Mars in 
the way that has been described. We can't do it safely in that 
way based on our knowledge now.
    My concern is that the way that will be interpreted is to 
basically take Mars off the table and, in doing so, suck most 
of the oxygen out of the room in terms of general interest in 
manned spaceflight. And to the average guy on the street, we 
are going to spend all this money redoing what we have already 
done. What is the point in that?
    Do you have a reaction to that concern about the public 
discussion and how that would be interpreted, or the sort of 
overarching political reaction to it?
    Mr. Augustine. We very much shared that exact same concern 
and discussed it at some length. The report, when it is 
released, I think you will find puts a great deal of emphasis 
on the fact that Mars is to be the destination that we are 
aiming at and that there is some homework that has to be done 
on the way to Mars. And that homework includes such things as 
effects of long-term zero Gs on humans that then go into a less 
than one-G environment, the effects of galactic cosmic rays on 
humans, information you can't get from the Space Station, 
various operational things that one might need to do to go to 
Mars. So, our message has been to make very clear that Mars is 
still the goal, but we are just not ready to go directly there 
today. But we do intend to get there.
    Senator Vitter. Well, I would really underscore that 
concern. And again, I am not arguing with either your analysis 
or what you intend to communicate. I am arguing about how it 
may come across.
    Let me go at the same issue another way. What, short of 
Mars, in this list of possibilities, is there that is new and 
different and that can really excite a lot of people that we 
haven't done before?
    Mr. Augustine. To the point of your question, we defined a 
``Flexible Path'' option. If you happen to be following in our 
report, it is, Option 5. A concern we had, even if you were to 
set out for Mars today, you have about a 15-, 20-year period 
during which we don't get to Mars. How do you hold the public's 
interest when you say send money and in 20 years, we will put a 
flag on Mars?
    So we tried to define a program called this ``Flexible 
Path'' program that has intermediate milestones where, as you 
go along, you could have things that not only engineers could 
point to, but the average citizen would look at and say was 
significant. We think those intermediate milestones would 
include, the most straightforward of which is circumnavigating 
the Moon. Another, is possibly landing on the Moon, although we 
don't think that is mandatory.
    Another, would be to circumnavigate Mars, with humans I am 
talking about. Another, that is of interest would be to dock 
with an asteroid and not only for the scientific interest, but 
to begin to learn how you conduct operations like that. And 
should some day we find a large asteroid flying in the 
direction of the Earth, it would be nice to know how to dock 
with it, what they are made of, and so on, what role humans 
might play.
    Then there is a possibility of landing on a Mars moon, 
Phobos or Deimos, with the notion that not only would that be 
an interesting place to land from a scientific standpoint, it 
is also interesting in terms of helping conduct robotic 
exploration of Mars. The presumption our committee has is that 
well before we go to Mars with humans, we would send additional 
explorers there.
    But, it is relatively difficult to operate a robot on Mars, 
in part because of the transit time for communications. Even at 
the speed of light, you are talking about tens of minutes to 
get a signal out and get a signal back, depending where you are 
in the orbit. With that, it is very hard to operate a rover or 
something on Mars.
    The notion has been put out that if you had astronauts on 
one of the moons, where the transit time to the surface of Mars 
is very small, that the astronauts on the moons could operate 
explorers on the planet and learn a great deal before you 
committed a human to landing on the planet Mars. This is a much 
easier task probably because if you think of it, the scientists 
talk about space as having gravity wells in it that once you 
get into one of those wells, it takes a lot of energy to get 
out of it. You are probably familiar with this. The Earth is a 
very deep gravity well. Mars is a deep gravity well. The moons 
of Mars are quite shallow. It offers a nice promising approach.
    Another place that is of interest, is what are called 
Lagrangian points that are points in space when you have two 
large bodies and a small body, or three bodies, where that 
point, if you put a spacecraft there, it will essentially 
remain fixed in that relative position to the two large 
objects--in this case, the Moon and the Earth.
    Some of those points are stable in the sense that if you 
put a spacecraft there, it will stay there. Others, it will 
very slowly try to drift away, and you have to push it back. 
Those points are interesting to put telescopes. They are 
interesting for refueling stations, filling stations in space, 
and we could fly to one of those.
    So it is our belief there are a lot of exciting things that 
one could do along the way.
    Senator Vitter. OK. Thank you.
    Mr. Chairman, I have several other questions, but let me 
defer to someone else for now.
    Senator Nelson. Mr. Augustine, right out of the box, the 
President is going to have to answer the question whether or 
not the cost of human space exploration is worth it. So I 
think, as I said at your opening hearing in Washington months 
ago, that the report of your committee is going to be very 
decisive in influencing the White House.
    Why don't you just state for the record what your committee 
feels about the cost of human exploration being worth it?
    Mr. Augustine. It is a question that we obviously addressed 
and one that I wish I could provide an answer better than I am 
able to. The reason I say that is our committee wasn't in a 
position to compare--it is a question that says where would you 
spend that money? There are other places you could spend it.
    We don't have background in healthcare. We don't have 
background in many of the other things that you face. So, I 
will try to answer the question, with that caveat, that really 
it is only the President, and perhaps yourselves, who can make 
that judgment.
    We think that the argument about human spaceflight being 
worthwhile because, for example, of the science it gathers has 
been an unfortunate argument to make because we don't think 
that you can justify the human spaceflight cost based upon the 
benefits it gives to science. Nor do we think you can justify 
it purely on the basis of the impact on technology or the 
impact of education.
    All those things are important. It, indeed, has a positive 
impact. But we think we have, to put it very bluntly, trapped 
ourselves by trying to justify human spaceflight because of the 
benefits to science or what have you.
    We think the justification has to be an intangible 
justification. It is a justification that says that the purpose 
is to prepare a path to put human beings into the solar system 
which shows America's leadership, the benefits of the American 
system, the leadership of our technology.
    It provides inspiration to our students, to our young 
people to go into math and science. It can have the kind of an 
impact that the Apollo 11 had during a time of some travail in 
our country. These are intangibles, but we think they are not 
unimportant. We think they are important. We don't diminish or 
minimize these other benefits. They are real. They are there. 
But they, by themselves, probably don't justify a human 
spaceflight program.
    The question--and I will stop in a moment here, Mr. 
Chairman. The question, of course, arises perhaps should you 
spend money on human spaceflight or on cancer research? I would 
argue that that is an unfair question. We live in a nation 
where we spent $7 billion gambling on the Super Bowl last year. 
We spent $32 billion on videos and going to the movies. We 
spent I think it is $65 billion on illegal drugs. It is clear 
to me that this Nation could afford--I am speaking for myself 
now--it is clear to me that this Nation could afford a strong 
human spaceflight program. It is simply a question of priority.
    Senator Nelson. As your committee discussed these 
intangible benefits, no doubt you noted also some of the 
tangible benefits. What do you think they are, as we continue 
to push forward?
    Mr. Augustine. Let me take the International Space Station 
as an example, if I may? We spent over two decades constructing 
the ISS, and we now are talking about using it for only 5 
years. During those 5 years, we don't have much money available 
to pay for the science that would produce these tangible 
benefits.
    There at one point was a large number of scientists who 
wanted to conduct science on the Station. They have somewhat 
dwindled away because of the slips in the program and the lack 
of funds. Given funds, there is significant microgravity work 
to be done. There is significant biosciences work to be done.
    We have done some amazing things in terms of technical 
operations. Extravehicular activity has become--I am not going 
to use the word almost routine, but certainly more common. We 
know how to do that. We know how to dock routinely, and there 
are benefits like that.
    In addition, there are always the spinoffs that one gets 
where you develop technologies for the Space Station or for 
other things in space that impact commercial products.
    Senator Nelson. Senator Hutchison?
    Senator Hutchison. Yes. If I understand correctly, and you 
correct me if I am wrong, yesterday in the House, you indicated 
that, if adequately funded, the Constellation program currently 
underway is a good program and coupled with the Shuttle flight 
continuation until a replacement human-rated capability is 
developed, either through Ares or commercial vendor, that the 
gap in human spaceflight could be closed and the International 
Space Station support and utilization could be ensured.
    Is that your view? And is, in your view, the $3 billion, 
with the cost of living or 2.4 percent increases per year, 
adequate for that kind of approach?
    Mr. Augustine. Yes, let me try to be clear. It would not be 
our view that you could conduct that kind of a program with the 
existing budget. It would be our view that with the $3 billion 
inflated profile that you, indeed, could conduct such a 
program. As you know, there are no funds to take the ISS in the 
current program beyond 2010. Excuse me, 2015. The Shuttle, 
2010.
    Senator Hutchison. And is it also your view that the 
Constellation program, together with an extension of the 
Shuttle flight program, would be a good approach to closing the 
gap and utilizing the Space Station?
    Mr. Augustine. We looked at a lot of options to try to 
close the gap, and it is our view that the gap is likely to be 
more like 7 years instead of the 5 years that people have 
talked about. The only option we could find, viable option to 
close that gap is to continue to operate the Space Shuttle.
    To do that, one, of course, has to commit funds to the 
Shuttle that otherwise could be spent preparing for the 
exploration program. And one would certainly have to recertify 
the Shuttle to be sure that safety issues were taken care of. 
But the answer to the question is not only is the Shuttle a way 
to close the gap, it is probably the only way to close the gap.
    Senator Hutchison. So you think that option is an 
acceptable--I know you didn't pick a recommendation, but that 
that would be an acceptable option?
    Mr. Augustine. It is a viable option, yes.
    Senator Hutchison. Yes. And then on the safety issue, do 
you believe that the Columbia accident investigation 
recertification standards are adequate, and if those were 
continued to be met that that would--you could never ensure 
safety because you never know all the factors--would it give us 
a solid safety assurance for continuation of the Shuttle--for 
as much as you can ensure that?
    Mr. Augustine. Yes. I appreciate your qualifying that. One 
of the frustrating things to an engineer like myself is that 90 
percent of the reliability failures that we encounter, and I 
separate that from safety, but 90 percent of them come from 
causes that aren't even in our models. They are a human error. 
They are a design flaw.
    With that caveat, it is our belief that were NASA to 
complete those requalification steps that we could continue 
with reasonable safety. We base that partly--of course, one of 
our members, Dr. Sally Ride, was a member of the Columbia and 
also the Challenger failure evaluations. But it is our belief 
that that could be done.
    Senator Hutchison. OK. On the issue of the commercial 
development, I have been certainly a supporter of the COTS, the 
Commercial Orbital Transportation System. I think that is a 
viable area for private investment and also for a kind of a 
fallback position where we need it.
    But I do want to ask you if we pursue that private 
capability, but do not also have the Orion or the Ares ready to 
go and we still have a potential gap in our own NASA 
capabilities, do you think that exclusive reliance on the 
commercial development is justifiable in the face of the need 
to utilize the Space Station, or does that concern you?
    Mr. Augustine. The reason we offered options that depend 
heavily on commercial development are that we are trying to 
free NASA's money and talent to tackle the tough problems of 
going beyond Earth orbit rather than running a trucking service 
to Earth orbit.
    We think we are in a situation a little like the airlines 
were when the Government stepped in and awarded contracts to 
carry the mail. That was the thing that made the airlines 
viable.
    Today, NASA has and NASA is pursuing this opportunity that 
you describe. It certainly bears risk. Many of the firms that 
are involved have not built major launch systems. In our 
evaluations, we were particularly conservative in assessing 
their capabilities.
    For example, some of them claim that they can have vehicles 
ready within 3 years. We think it is more like 6 years. But 
certainly, there is no reason that these companies can't 
produce a viable capability, given the support of NASA.
    Senator Hutchison. And would you be comfortable that they 
could provide that service to try to fill the gap and that that 
is reliable enough?
    Mr. Augustine. I think the answer is yes. But fortunately, 
we don't have to answer that at this moment. But there are 
other alternatives available, including French launch vehicles, 
continue to use the Russian launch vehicles, none of which are 
attractive to me as an American, although I believe in 
international programs. I believe that if you are going to have 
international programs that are meaningful, we are going to 
have to get used to having other nations on the critical path.
    At the same time, there is no more critical path, I think, 
than being able to carry astronauts to low-Earth orbit, and 
that might be the one exception where I think we should have a 
capability. So my answer is there is risk, nontrivial risk. But 
in our mind, it is a risk worth taking.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Following up Senator Hutchison's question 
on commercial capability, you are really looking at the cargo 
capability on commercial, because the next step, the question 
of safety, for human capability, what did your committee come 
up with on that?
    Mr. Augustine. It would be our recommendation that as NASA 
develops new launch vehicles, most new launch vehicles, that it 
would make arrangements so that they could be human-rated at an 
appropriate time. So, we think it would be wise to begin 
addressing how would you human-rate those commercial vehicles?
    Senator Nelson. Did your committee have a time at which you 
think that they might be ready for human-rated commercial 
vehicles?
    Mr. Augustine. I think, Mr. Chairman, I better provide that 
for the record. We did evaluate that, and I can't remember the 
time. It is not within the next 6 years or so. I will provide 
that for the record.
    [The information referred to follows:]

    The Committee estimated that commercial crew services could begin 
approximately 6-7 years after they were initiated.

    Senator Nelson. Senator Vitter?
    Senator Vitter. So, to directly follow up on that, is that 
to say that you would agree with ASAP in their 2008 report that 
it is unlikely that COTS would be done in time, human rated, to 
minimize the gap?
    Mr. Augustine. That is our view.
    Senator Vitter. OK. Going back to the gap and extending the 
Shuttle, if you extend the Shuttle at least slightly into 2011, 
as you have talked about, simply to ensure that there is no 
launch fever, but not beyond that, and you accept a gap versus 
extending the Shuttle beyond that to close a gap, how much--let 
me put it this way--how much do you sacrifice in extending the 
Shuttle beyond that to close all the gap in terms of pushing 
forward next-generation activity?
    Mr. Augustine. I am doing this calculation mentally, but it 
would probably be about $18 billion over to close the gap by 
using the Shuttle would be the incremental cost.
    Senator Vitter. And what does that translate into time, in 
terms of otherwise using it to pull next-generation forward?
    Mr. Augustine. Well, I guess the way I would characterize 
that would be if it would let you go with the $3 billion 
additional profile for 6 years. These are not precise numbers, 
Senator Vitter. But I think the most important thing is not so 
much the time it pulls forward, but when you reach these big 
milestones of having new launch vehicles, you would have money 
to develop things to put on top of them to go somewhere.
    Senator Vitter. Wouldn't you also presumably develop the 
new launch vehicles at least somewhat sooner?
    Mr. Augustine. If you have used that money, you would 
probably be able to accelerate the launch vehicle some, but I 
don't think it would be--certainly, if you spent the money, for 
example, on the Ares V, you could clearly drive forward, and I 
don't know the amount, but probably significantly.
    Senator Vitter. I am not asking for a yes/no answer. How 
would you suggest we analyze that difference? In other words, 
extend the Shuttle and close the gap versus accept a gap, try 
to minimize it, but be able to use that money toward where we 
are ultimately going?
    Mr. Augustine. We did do that analysis, and we will provide 
it. It was our conclusion that continuing the Shuttle to close 
the gap is a viable option, and it is one of the options we 
offered.
    The rationale, benefits, and liabilities of each of the 
options put forth by the Committee, including the option that 
extends Shuttle operations to 2015, are provided in the 
Committee's Final Report. See pages 86 and 87 specifically for 
a discussion of Option 4B which extends the operations of the 
Shuttle to 2015.
    I am trying very hard not to make a recommendation here. 
But it runs into the problem that the more money you spend in 
the near term, the less you can do in the exploratory program. 
The cost of continuing to operate the Shuttle is quite high.
    Senator Vitter. Well, that is where I was going. So you 
would certainly agree with my reaction to those figures that 
that is a lot of money----
    Mr. Augustine. Indeed.
    Senator Vitter.--to continue the Shuttle. You know, I 
represent Louisiana, which includes Michoud. I am all for the 
external fuel tanks. But my concern is once you start putting 
off the next generation that much, you threaten ever getting 
there. You threaten really building a consensus and a reality 
that people think we are ever going to get there, and so we 
don't.
    Do you have a reaction to that?
    Mr. Augustine. Yes, I think you are coming back to the 
fundamental problem of NASA's, and that is that with the budget 
constraints it has had on it, it doesn't have enough money to 
develop the next-generation system while it continues to 
operate the current system. So, the consequence of that today 
is the gap with which most of us are not particularly happy.
    There will be another problem, when we complete the Ares I, 
there will be another gap. What are we going to do with the 
Ares I and the Orion once we get them? When we complete the 
Ares V, there will be no lunar excursion module, if you will, 
lunar lander, nor a surface system to use it. So this may be 
just the first of three or four gaps.
    Senator Vitter. And so, just to be clear, this concern of 
mine in terms of this trade-off isn't solved by the extra $3 
billion? I mean, that mitigates it, but that trade-off is still 
there, even at the higher funding levels you are talking about.
    Mr. Augustine. The programs we have that add on the $3 
billion, one of them includes the Shuttle and it has the 
problems we have just discussed. The other ones did not include 
the extension of the Shuttle beyond mid 2011.
    Senator Vitter. OK. That is all I have right now, Mr. 
Chairman.
    Senator Nelson. I want to ask a series of questions around 
the major themes of your report. If we are going to have a 
robust human space program we are going to have to commit the 
resources to it. You have specifically talked about $3 billion 
a year.
    Your architecture is various, and engineers such as 
yourself and NASA leadership are going to have to determine 
that architecture. But the goal that the Committee has set is 
to get out beyond low-Earth orbit, that NASA ought to be 
exploring the heavens with the human space program. In the 
meantime, we have got to worry about the work force.
    I want to pick up on those three themes, which I think are 
going to be the major themes that the President is going to 
have to make his decision on. You came up with this idea of $3 
billion a year. If you had additional resources, what would you 
do?
    Mr. Augustine. Beyond the $3 billion? The primary things 
that we think need to be done in the near future are largely 
covered in the $3 billion figure. If you had additional funds, 
you would be able to probably move forward somewhat some of the 
work on Ares I, but I think it would be a modest amount that 
you could accelerate that. You could clearly move Ares V 
forward or an alternative to Ares V, which would be very 
important because that really is the long pole in our space 
exploration tent.
    Senator Nelson. Is the Ares V?
    Mr. Augustine. Is a heavy-lift capability of which----
    Senator Nelson. Heavy-lift capability.
    Mr. Augustine.--the Ares V is a good example.
    Senator Nelson. So you have come up with the idea, a 
consensus that you feel like the $3 billion is enough in order 
to support a robust human spaceflight program in the near term 
without having to shortchange other missions in science and 
aeronautics?
    Mr. Augustine. We believe that is true. We, of course, 
assume good management of that additional money, which there is 
every reason to believe we would have. We have also proposed 
creating a firewall between the human spaceflight funding--and 
I emphasize funding, not technology or mutual support--and the 
science program. As we all know, the human spaceflight program 
is so large that when it has problems, it tends to cannibalize 
the science program.
    Senator Nelson. Do you feel that the realities of this gap 
are unavoidable and the fact that we are going to have this 
gap, with that $3 billion, that you can keep things going by 
developing the new technologies on down the line in order to 
maintain the most robust human spaceflight program?
    Mr. Augustine. To eliminate the gap or significantly reduce 
it would have a significant negative impact on the long-term 
exploration program. I think the gap is something that we are 
presented with based on decisions that were made in the past, 
perhaps good decisions. I don't know. But I think that we are, 
to a considerable degree, stuck with a gap.
    Senator Nelson. Did the committee look at taking the 
Constellation program, as it has been defined, and see how much 
it would cost to execute the Constellation program?
    Mr. Augustine. We did. This $3 billion profile that is 
added permits either the Constellation or several other options 
to be carried out. So the answer is we did, and it can be done.
    Senator Nelson. But according to one of your charts, which 
we can show up here, in what you called the less constrained 
budget, in other words, the $3 billion additional each year, 
with Ares V as the heavy launch and with Ares I and Orion as 
the crew to LEO, which is the Constellation program as 
envisioned now, under that funding scenario, lo and behold, the 
Space Station is going to go in the drink in 2015.
    Your committee also said that is unacceptable. I happen to 
agree with you. Why would we spend $100 billion building the 
Space Station and then put it in the Pacific? But that is what 
the funding profile is for that $3 billion and with an 
extension of Constellation. Is it not?
    Mr. Augustine. Yes. I think you are--I can't see that 
chart. But I think you are referring to Option 3?
    Senator Nelson. It is Option 3.
    Mr. Augustine. Option 3 was intended to take the baseline 
Program of Record, apply a less constrained budget to it, just 
as we did in the other cases. The Program of Record, as you 
say, splashes the ISS in early 2016, completes the flight, the 
use of it in 2015.
    Senator Nelson. Well, how is it, with what you call the 
constrained budget, which is the present, and inadequate I will 
say, OMB budget. I will not ascribe that to the President.
    Mr. Augustine. Nor me, I hope.
    Senator Nelson. Yes, what you just said I think is very 
important. What you just said, ``I hope.'' From your lips to 
the President's ears.
    Option Number 1--constrained. You could do that. No $3 
billion extra. You are still putting the ISS in the ditch in 
2015, and you have got Ares V and Ares I. So what are you 
buying extra from Option 1 to Option 3? In Option 3, you are 
getting an additional $3 billion.
    Mr. Augustine. Option 1 is the Program of Record, of 
course, with the current funding, and with that, you basically 
get launch vehicles with nothing to put on top of them. I am 
oversimplifying here, Mr. Chairman.
    With Option 3, you are able to develop the Ares V at an 
earlier time. You are able to carry the International Space 
Station for an additional 5 years. We have also provided the 
full amount of money one needs to de-orbit the International 
Space Station in that option. One gets a technology program 
that is rather substantial to begin laying work for the 
exploration program, and one gets funding to carry out science 
and technology onboard the ISS over that 10-year period.
    Senator Nelson. I think that is the answer. It is the 
additional science and technology that you get under that. But 
let me just point out that on the chart--and maybe the chart 
needs to be refined before your final report comes out--Option 
1 and 3 are a difference of $3 billion, and yet it looks like 
they present the same result because in Option 3, you are 
putting the Space Station in the Pacific in 2015. The 
difference with Option 4 is that you have replaced Ares I and 
Orion with a commercial vehicle to get to low-Earth orbit.
    Mr. Augustine. Your point is a very good one. This chart is 
somewhat misleading in that regard. There is also the matter 
that the dates change when things become available. For 
example, under Option 1, you are probably in the 2030s when you 
can conduct human exploration missions. That is our view. It is 
not necessarily NASA's view. Whereas, under Option 3, you could 
do it considerably earlier.
    Senator Nelson. Since we have a consensus of opinion that 
we need to get NASA out of LEO, do you have a preference on the 
architecture? I know you said you are not in the business of 
recommending a specific course, but do you have any personal 
feelings that you want to share with the Committee?
    Mr. Augustine. Well, Mr. Chairman, we have all tried very 
hard to not put you or the President in a position where we 
have come out and endorsed an option and that you then, if you 
don't agree with it, have to rebut that. So my answer is that I 
think I could speak for the Committee that Options 1 and 2 we 
deem to be just not viable. Of the remaining three primary 
options, each has some advantages and some disadvantages.
    Our committee has never discussed what our personal 
preferences are. By intent, we have not done that. So I have no 
idea what my colleagues believe. I would go so far as to say 
that these flexible path options are particularly interesting 
to me because I am concerned that if we commit to going to the 
Moon, there is a reaction--as a primary objective, many 
people's reaction is, ``Well, we did that years ago. Why do 
that again?''
    If we take down the ISS so you don't have things happening 
between 2015 and 2020, you have the problem you just described, 
Mr. Chairman. If you say we will go to Mars right after the 
Moon, there is such a long period of time that how do you 
excite young engineers to want to commit their career to that? 
How do you excite taxpayers to want to pay for that?
    There is great merit to having some interim milestones 
along the way to Mars, still going to Mars ultimately. But 
where you can point to significant technical engineering, 
scientific, if you will, advantages and accomplishments.
    What I am saying, to be more specific, is that, clearly, 
Option 5 carries that opportunity. Now you can marry that 
opportunity with some of the other options as well, and indeed, 
we have done that with Option 5A, for example, which ties into 
a version of the Ares V.
    Senator Nelson. At the end of October this year, NASA is 
well on the way to doing a full-up flight test of the Ares I, 
what they call X. It's the four segments of existing solid 
rocket boosters with a dummy fifth segment, Orion, on the top. 
To fly it, see its dynamics, the avionics, et cetera.
    Did your committee discuss any attitude about that 
particular test that is right down the pike less than 6 weeks 
away?
    Mr. Augustine. The Committee did not discuss that. I did 
discuss it, myself, with the Administrator of NASA, and that 
is, of course, his call to make. I have enormous respect for 
his ability and judgment.
    Were it my call, I would fly it. The reason is we will gain 
technical knowledge that we have paid a great deal to get, and 
we should get it.
    If we continue with the Ares I program, it is an important 
step. And if we don't continue with it, it is an important 
piece of information to have that relates to the Ares V and 
other possible options. It is our committee's view that the 
Ares I, while it has technical problems, some not 
insignificant, there is no reason to believe that good 
engineering and sufficient funds won't make the Ares I a very 
good vehicle in time.
    Senator Nelson. Let us talk about my third major category 
that I think that the President is going to have to look to in 
making his decision. How is he going to keep this 
extraordinarily talented workforce operating? Share with us 
what your committee deliberated about that.
    Mr. Augustine. That is a very key part of this whole 
question. Needless to say, this is a rather esoteric business. 
It takes years, I have observed, to begin to understand some of 
the subtleties and to gain the culture that goes with launching 
rockets. One of the reasons being that this is such an 
unforgiving business. We generally don't get recalls in this 
business.
    NASA has, without question, the largest talent base in the 
world today to conduct space activities, both human and 
robotic. That is a national treasure to us. The options we have 
offered, beyond the two that I have suggested are probably not 
viable; all have about the same overall budget, and unless one 
makes a major shift in how one conducts business, the overall 
NASA employment should stay about the same. However, the mix of 
that employment will certainly change. We will need different 
talents.
    For example, if we terminate the Shuttle in 2010 or early 
2011, the people who have been focusing on launching shuttles 
are different people probably than some who would be needed to 
build an Ares or an Ares I or an Ares V or whatever, a shuttle-
derived vehicle. So there will be changes in skill.
    We looked at two kinds of asset when it comes to human 
talent. One is just the overall work force, namely jobs. Not an 
unimportant subject at this time. On the other hand, it is our 
view that it would be tragic to view NASA as a jobs program. 
NASA has so much more to offer than just creating jobs.
    The other we looked at are those critical skills that only 
people at NASA or in the industry are likely to have. Those we 
think are very important to preserve, and we need to 
consciously go out and do that. An example would be the large, 
segmented solid rocket motors. It is an art, as well as a 
science, to build those things safely. If we lose that 
capability, it will be very hard to get back.
    Ability to work with liquid hydrogen, liquid oxygen--we 
would like to see us learn how to do that in space as well as 
here on Earth. So those special skills we have to find a way to 
preserve for sure.
    And I guess, Mr. Chairman, if I could extend your question 
just a little bit, one last comment, and that would be that 
NASA has, as I said before, a very high fixed cost base. It 
makes it extremely hard to create new opportunities and options 
when you have that fixed cost base.
    Part of that fixed cost base is the centers, the work 
force, the facilities, and it would be our hope that the 
President and the Congress would give the Administrator of NASA 
a great deal of latitude to manage the resources that he is 
responsible for.
    Senator Nelson. I want to underscore that very important 
comment so that these dislocations of the work force, albeit as 
you said with the more robust funding is going to keep NASA at 
a fairly level amount of employment, that is going to change 
among the different centers according to what their particular 
workforce does.
    Needless to say, in consideration of if we are not 
launching humans on an American vehicle, there are going to be 
less launches at, for example, the Kennedy Space Center, even 
though we might be building the new rocket with the new 
technologies and the new money that you have laid out. I hope 
that the President and the Congress will give the Administrator 
exactly what you said, the flexibility so that he could utilize 
that workforce in different places with different missions so 
as to minimize the economic devastation.
    In this regard, I will put on my parochial hat. The center 
that is going to get hit the hardest is the Kennedy Space 
Center because of the smaller number of launches of humans. If, 
for example, the President were to pick the commercial option, 
that would ameliorate some of the layoffs, but it is not going 
to step in. We need to give the Administrator of NASA a lot of 
flexibility there. So thank you for that statement.
    I want to ask you, what if you had more time? You had 90 
days. If you had more time, do you think the results would 
change?
    Mr. Augustine. Well, the first thing that would have 
happened would have been my wife would have divorced me.
    [Laughter.]
    Senator Nelson. I understand.
    Mr. Augustine. All 10 of us, of course, have regular jobs, 
so to speak, and when we began, I questioned whether 90 days 
was adequate to take on a task of this type. We clearly could 
have done a more thorough analysis given more time.
    But it is also my belief that if the differences are small 
between the new options and the current program, we should 
stick with the current program. I think we are not discussing 
small differences. There need to be significant differences, 
and those are the kinds of things we tried to identify. Our 
conclusion was that it would have been easier for us and we 
would have been able to get the third significant figure much 
more accurately. But, in terms of the basic thrust of the 
options we have offered and their assessment, I think we can 
stand behind them.
    Senator Nelson. You had testified earlier that your panel's 
recommendations are to not rush the Shuttle fly-out and keep 
safety paramount. Which, by the way, parenthetically, I assume 
will be a theme that will run throughout your report once it is 
produced publicly. Of these items, safety has to be paramount, 
given the very tragic experience that we have had in the past.
    You indicated in your testimony that you thought that it is 
realistic to think that at least part, if not all, of Fiscal 
Year 2011 would be consumed by the fly out of the Shuttle and 
the remaining missions to supply and equip the Space Station.
    Did you attach a dollar figure to 2011 in that fly out? 
Since the President's budget right now, and I will refer it to 
the OMB budget, and I say that sarcastically, only provides for 
Fiscal Year 2010 for the fly-out of the Shuttle. Did you attach 
a cost to it?
    Mr. Augustine. We did, and we have spoken with OMB about 
it. They are aware of the number. I can't speak for OMB, 
obviously. My recollection is the number is like $1.5 billion. 
But, Mr. Chairman, you should check that to be exact.
    It is our view that that is very important to add that to 
the Fiscal Year 2011 budget, and as you say, it is not there 
today. The problem with it not being there is it introduces 
pressure on getting the launch off by a given time. I referred 
to that as launch fever, something we always tried to fight in 
the company I used to serve.
    It is a subtle pressure, and the Challenger CAIB spoke to 
that pressure as one of the causes, they thought, of the 
Challenger accident. Having said this, I would hasten to add we 
have spent a good deal of time talking with the people who are 
responsible for launching the remaining Shuttles, the six 
remaining ones. They are very conscious of this. They are 
taking an attitude that they won't be hurried.
    I think they are doing everything right. The problem is 
they are going to run off of a budget cliff 12 months from now, 
and we need to fix that for them. I think if we do, they will 
manage things very properly.
    Senator Nelson. I have been amazed as I have watched this 
entire space team knowing that the Space Shuttle is likely to 
come to an end, and they haven't missed a beat with still high 
morale. To me, I am just amazed and very appreciative.
    Mr. Augustine. And I say, too, I never cease to be amazed 
when having to close a plant, terminate a program, of the 
commitment of the people to doing just what you said, and that 
is particularly true in the space arena and the defense arena, 
where what they are doing is more than building widgets.
    Senator Nelson. That is correct. And thank you for putting 
that on the record. I think it is important that the White 
House and OMB hear what you just said. The Congress has 
provided in its budget for the out-year 2011 an additional 
budget authorization of $2.5 billion in order to fly out the 
Space Shuttle in year 2011, but that is in a budget planning 
document. It has to be put into reality, and only the White 
House can do that with the Congress concurring.
    What is your opinion about a constant source of funding and 
an adherence to a defined plan once the option is chosen as a 
key success for NASA's future?
    Mr. Augustine. That clearly would be a key factor to 
success, particularly if that number included a reserve to 
account for the unforeseen--reserve in time, reserve in funds, 
reserve in technology. It is almost impossible, as you know, to 
manage a program that goes out to the year 2030 when you don't 
know what the funding commitment is and when you have to 
redesign the program each year.
    This is a program that probably involves tens of thousands 
of contracts and subcontractor agreements. When you change the 
budget, you have to renegotiate those, and rarely do they go 
down when you renegotiate. So your total costs go up.
    Stability of funding would have an enormously positive 
impact. Having said that, I also recognize the difficulties 
that you face in your chair when you don't know that the 
economy is going to collapse on us a year ago and that the 
Government's receipts are going to drop. It is not clear to me 
how one can guarantee a program budget for the kind of time 
period it takes to undertake these major pursuits. But, 
anything that can be done by the Congress and the White House 
to put stability in the funding and to let the NASA leadership 
know ahead of time what that funding is going to be so that 
they don't have to guess would be one of the greatest 
contributions you could make to the human spaceflight program 
or to any spaceflight program.
    Senator Nelson. Let's talk about these options in 4A 
through the end, where the crew to low-Earth orbit is launched 
by the commercial provider instead of a NASA vehicle. You know 
the history of developing spacecraft. Do you think that you 
really could have one of these commercial operators able to get 
a human crew up to the Space Station in 7 years?
    Mr. Augustine. I think if you were to have several paths 
with several operators, several commercial firms, not 
necessarily only the smaller firms that are very quick on their 
feet, but also some of the larger, more experienced firms that 
are probably less quick on their feet but have more scar 
tissue, I think if you could have several firms involved 
through a competition that the chances would be very good that 
one would have a success.
    I think back to earlier in my career when we had ICBMs as 
launch vehicles. You are familiar. I speak to the Titan and the 
Atlas. ICBMs in those days when I was involved were designed to 
reliabilities that don't even approach the reliabilities we 
talk about today for human-rated vehicles, and yet we did find 
a way to--we called it man rating in those days, incorrectly. 
We did find a way to man-rate those vehicles and to use them in 
the Gemini and the Mercury program, and they performed very 
well.
    There is no fundamental physical reason why this shouldn't 
be possible, but I would say again it is not without risk. 
There are backups that one can consider that is other launch 
vehicles, including foreign launch vehicles, during that period 
of time.
    Senator Nelson. And so, when it comes to U.S. commercial 
cargo capability, your committee felt pretty confident of that 
capability?
    Mr. Augustine. I think that is true, and NASA has, of 
course, embraced this idea, provided NASA technical oversight 
and NASA help, which gives me greater assurance. These firms 
have some very talented people, and I think there is every 
reason to believe that they can be successful.
    Senator Nelson. Do you want to talk to us about the 
differences between the Ares V heavy capability and your 
discussions as an alternative to an Ares V Lite?
    Mr. Augustine. I would be glad to do that. The Ares V, of 
course, is part of the current Program of Record, although, 
unfortunately, it has not been able to be funded because to 
keep the budget for the Ares I and the Orion unchanged, we have 
been delayed in starting the Ares V and things that might go 
with it.
    The Ares V Lite is very similar to the Ares V, but it has 
less payload capability, and the basic measure, as you know, it 
is 150 metric tons. See, am I getting mixed--140 metric tons, I 
guess, for the Ares V and 130, I think, for the--there is about 
a 20-metric ton difference in terms of payload throw-weight.
    The Ares V Lite basically has one less engine, has half a 
segment less on the solids, and can be designed to have more 
margin. That is important to us because the Ares V, even today, 
many years from first launch, has very shallow margins. If 
there is one thing we have learned, it is that having margins 
is the blessing of the space program, to be able to de-rate 
things.
    The Ares V would be used in companion with an Ares I that 
is referred to by NASA as ``Ares I and a half.'' Whereas, the 
Ares V Lite would be used with another Ares V as its companion. 
That also has the advantage that you only have to have spares 
at launch facilities and so on for one launch vehicle of the 
type. So you would use two Ares V, which gives you--my numbers, 
for some reason, are escaping me at the moment. But let me just 
check.
    Senator Nelson. It is 160 metric tons for the Ares V, and 
for the Lite, it is 143 metric tons.
    Mr. Augustine. That is why I couldn't make it work, thank 
you. So, you have 320 metric tons throw-weight with the 2 Ares 
IV Lites, and you have 40 less--excuse me, you have, well, 
substantially less throw-weight with an Ares I/Ares V 
combination. So we think there is a good deal of merit to the 
Ares V Lite approach. The disadvantage, of course, is that the 
Ares I is partly developed, and the Ares V is not.
    Senator Nelson. And according to your much more complicated 
chart, you could have the Ares V Lite ready to go in the early 
2020s, if you went the flexible path, if you went to the Moon 
first. So it would be the early 2020s.
    Of course, you remember that the President said in the 
campaign, he wanted to be on the Moon by 2020. So that is 
pretty much out the window according to your panel, isn't it?
    Mr. Augustine. That is true.
    Senator Nelson. So you are talking early 2020s you could 
have Ares V Lite ready, and you would have a scenario by which 
you could get Ares V up with a crew with a lunar vehicle and do 
rendezvous perhaps in lunar orbit?
    Mr. Augustine. We are speaking to the larger budget level, 
of course, and the answer would be yes.
    Senator Nelson. Yes. Do you want to for the record give me 
any comments about the alternative on the EELVs, the expendable 
launch vehicles?
    Mr. Augustine. Yes, the expendable launch vehicle family, 
of course, is one that has been with us for many years, traces 
its history to the ICBM programs, in fact, and has been 
extended by the Department of Defense. These vehicles have been 
used in various forms, some not yet in the form or carrying the 
full throw-weight that would be needed for this mission. The 
vehicles are proven. They are not human-rated, and they would 
require additional development. They offer a legitimate 
alternative. They also offer the advantage that the Department 
of Defense and the intelligence community might find them 
useful, and we could have some savings there. That offers the 
disadvantage of having to coordinate vehicles coming down the 
line of who gets what and who gets first priority.
    But it would be our committee's view that the EELV family 
is a viable option worthy of consideration, and we have not 
attempted to make specific choices here, in part because it 
would require a great deal more analysis than we have done in 
addition to our not wanting to take a position. It is a choice 
that good engineering can make.
    Senator Nelson. I am curious. One of the earlier years of 
accomplishment is under using an EELV, going the flexible path, 
and you are looking at the years 2015-2016. Can you comment on 
that?
    Mr. Augustine. Yes. The reason for that, of course, is that 
the goal is changed. The goal is a much less demanding one 
under this flexible path option.
    Senator Nelson. So that would still get you out on things 
like asteroids or one of the Martian moons utilizing an EELV?
    Mr. Augustine. Yes, and human-rated.
    Senator Nelson. And you could do that within the span of 
2015-2016?
    Mr. Augustine. No. No, it would be well beyond that. I, 
unfortunately, don't have the numbers here with me, but it 
would be well beyond that.
    Senator Nelson. OK. I was looking from this complicated 
chart.
    Mr. Augustine. Yes. I don't have that chart here.
    Senator Nelson. Right. Well, under that plan on this same 
chart, you would be late 2020s with an actual landing on the 
Moon?
    Mr. Augustine. That sounds more correct.
    Senator Nelson. Did your committee discuss an Atlas or a 
Delta on the EELVs?
    Mr. Augustine. We did. They are both certainly plausible 
candidates. Oh, I do have it. Thank you.
    Senator Nelson. How did your committee arrive at the cost 
estimates for the different options?
    Mr. Augustine. The Committee, as I mentioned, hired the 
Aerospace Corporation to assist us in this regard, and we also 
had a good deal of help from NASA. We obtained the NASA 
estimates that they have and the probabilities of confidence 
levels that go with them.
    The Aerospace Corporation has some models that are based on 
a large number of prior programs. I believe it is 77 prior 
space programs. Those models show correction factors to account 
for real-world experiences compared with estimates that were 
made at various points in those programs.
    We took the work--I should say ``we,'' the Aerospace 
Corporation took the work breakdown structure line-by-line and 
considered what was the maturity of the work under that line 
item. Is this a component that exists? In which case the factor 
they would add was 1.0. If it was a component that was just 
beginning, depending on the kind of component, on average, they 
have used a factor of about 1.5. If you go through that whole 
set of items, the average is about a 1.25 factor they have used 
in estimating cost.
    The factors, as I say, weigh in the maturity of the item in 
question, and so that tends to reduce the factor that was added 
somewhat more. NASA has raised the point that they consider 
that some of these factors or, in fact, many of them were 
included in their original estimates and that when Aerospace 
has taken this step, they have double counted.
    The Aerospace Corporation and ourselves believes that is 
not the case, and even if it is the case, it is unlikely that 
we have been too conservative. I will give you one reason. That 
if you look at the set of programs that the Aerospace 
Corporation uses to derive the factors--I think it is 77 
programs--for the whole set of programs, they have a given 
factor.
    If you take only the human spaceflight programs from that 
set, you have a factor that is almost twice as great. Even if 
we have double counted, chances are we have double counted on 
the order of 10 percent or so, and experience would suggest 
that is probably not a bad thing to do.
    Senator Nelson. How do you answer this question that we 
have spent $8 billion thus far on the present architecture, 
which includes Ares I, and now we are going to abandon that, 
having spent $8 billion?
    Mr. Augustine. My answer is that we have offered a set of 
five options. We have not suggested abandoning Ares I. Some of 
the options do abandon it. We could continue with Ares I, no 
question about it. The same thing, we could continue with the 
Space Shuttle. We could have ISS longer.
    It gets to be a question that if you do all of those 
things, you just don't get to do some of the things in the 
future like build an Ares V or a heavy-lift vehicle, which we 
think is what this Nation has badly needed, frankly, since the 
first of these studies I was involved in and recommended at 
that time.
    So Ares I, in our mind, we haven't recommended that it 
either be continued or that it be abandoned. If it were to be 
abandoned, we think there ought to be compelling reasons to 
abandon it. One of the strong sentiments I have derived in my 
career is that constantly changing programs is one of the worst 
things you could do, and you should only make changes for very 
compelling reasons.
    We have offered the pros and cons, and it is up to the 
reader to judge what the definition of compelling is in their 
mind. There are liabilities to continuing with the Ares I. One 
of those liabilities is that under the current program planned, 
as I mentioned at the outset, we won't even get it until 2 
years after the ISS is at the bottom of the Pacific Ocean, by 
our estimate.
    If we extend the ISS, we will only be able to use the Ares 
I for about 3 years to support it. Then there won't be that 
much to do with it, frankly, until we get the Ares V. But we 
will get the Ares V later because we have spent the money on 
Ares I.
    On the other hand, the Ares I is designed to be probably 
the most reliable vehicle that has ever been built, and we 
think there is a good chance that will be the case. As you say, 
we have spent $8 billion on it, and although that is a sum cost 
issue, nonetheless, we have spent $8 billion. There are a lot 
of people working on it. We are getting ready to conduct a test 
of what one might call a prototype of that vehicle, and it, 
too, is a very viable vehicle.
    So I would like not to make a choice here, but just to 
point out the pros and cons.
    Senator Nelson. Well, if the President were to pick the 
option of Ares V, heavy lift, or the Ares V Lite, you are 
certainly going to be able to utilize the technology that you 
have developed for the Ares I so that you don't lose all the 
value of that $8 billion that has already been spent. Is that 
what the Committee concluded?
    Mr. Augustine. That is absolutely true, and similarly, if 
you pick another option, you can always complete the Ares I by 
adding money. As I recall, again, I don't have my data, but I 
think it is a $1.5 billion or so. But pretty soon, you add up 
these things--we tried very hard to scratch for money so that 
our profile was $3 billion and not $6 billion or $5 billion.
    Senator Nelson. What was the Committee's thinking on 
promoting the development of on-orbit refueling?
    Mr. Augustine. Interesting question. As a matter of fact, 
Wernher von Braun, in some of his writings you may be familiar 
with, pointed to the enormous advantages of on-orbit refueling. 
Over the years, we have had some efforts begun to look at the 
subject but have never really carried them to any great 
fruition, principally for financial reasons, cost reasons.
    It is our belief that on-orbit refueling will be a major 
factor in space exploration one day. We clearly aren't ready to 
undertake it today. We just don't know enough. It would be too 
dangerous. But there is no reason that we know of from an 
engineering standpoint that one can't do it.
    We would like to use some of the money that we propose 
spending under these Options 3, 4, and 5 to run tests first on 
the ground and then in the general vicinity of the ISS of 
refueling on orbit. Once that has been done, it could have a 
significant impact on some of the options. For example, some of 
the closely derived Shuttle options benefit substantially from 
on-orbit refueling. So we think it is something that is ready 
for a major technology effort today, but not anything further 
beyond.
    Senator Nelson. Did you have in your discussions any idea 
of the time in mind as to when we should try to target for on-
orbit refueling?
    Mr. Augustine. I would like to provide that for the record, 
if I could?
    [The information referred to follows:]

    The Committee did not prepare a specific plan for the development 
of on-orbit refueling. However, in some of the Committee's exploration 
options, a refueling capability was assumed to be available in the 
early 2020s. It was the Committee's judgment that an on-orbit refueling 
capability could be developed by that time, given an appropriate amount 
of funding for research and development.

    Senator Nelson. OK. Does any of the staff have any 
additional questions? We will keep the record open for any of 
the members of the Committee.
    I know Senator Pryor was trying to get here, and he was 
with his father, the former Senator Pryor. So I am sure he will 
have some.
    Can you give us an estimate of how much it will cost to 
continue flying the Shuttle until Ares I or a commercial 
solution is available in that range of 2016-2017?
    Mr. Augustine. That was the----
    Senator Nelson. And let me just complete the Station 
because it is one of your options, and that would also support 
the ISS until 2020 and maintain the development of a heavy-lift 
capability by the early 2020s.
    Mr. Augustine. If you were to continue the Shuttle to 
support the ISS through 2020?
    Senator Nelson. That is right.
    Mr. Augustine. You would probably have to add I think----
    Senator Nelson. Just until a new commercial human-rated 
vehicle would be developed.
    Mr. Augustine. Human-rated, of course.
    Senator Nelson. That doesn't seem to be one of the options. 
Yes, what staff is pointing out, it would be the best of all 
worlds. You continue to fly the Shuttle, and the question is 
what is it going to cost? Until you had a human-rated 
capability commercially, you keep the Station up there until 
2020 so that we have the value of that, and at the same time, 
you do your technology development of a heavy-lift capability 
by the early 2020s.
    Mr. Augustine. My estimate would be that the additional 
cost would be of the order of $10 billion, probably a little 
more.
    Senator Nelson. Over that whole time period?
    Mr. Augustine. Yes.
    Senator Nelson. That is the above the $30 billion over that 
10-year period, which was the $3 billion per year?
    Mr. Augustine. Exactly, you would have to add that or else 
take it out of the $30 billion, and if you take it out of the 
$30 billion, you slip the other things we would like to be 
doing.
    If you did continue the Shuttle, one benefit of that, 
another benefit other than closing the gap is that it makes the 
closely derived Shuttle vehicle options very much more 
interesting because if you still have the Shuttle operating and 
in production for that period of time, then driving from the 
external tank and so on becomes a much more plausible option. 
The difficulty, of course, is that we only have three Shuttles 
left. The launch rate will be very low, and when you go to low 
launch rates, you start worrying about safety.
    Senator Nelson. Well, that would be then more like Option 
5C, flexible path Shuttle derived?
    Mr. Augustine. It would be like that except----
    Senator Nelson. Except the Shuttle life would continue to 
service the Space Station until a commercial human capability 
is ready?
    Mr. Augustine. Yes. You have described a derivative of 
Option 5C where you would continue the Shuttle operation.
    Senator Nelson. Right. Any further questions from the 
staff?
    [No response.]
    Senator Nelson. OK. The record will stay open for a couple 
of days.
    And again, I want to thank you for what you have done. This 
was very unselfish work.
    I think the President really has a major decision here. 
There is nothing like a President making a bold decision to 
focus the Nation on where we ought to be going technologically, 
and he is at that point. You have laid out a lot of parameters 
for him.
    I think it is going to be up to the President. We will 
certainly advise him, but it is his decision, and it is at a 
tough, tough time because of what we are facing with the budget 
deficit. Just look at these gyrations that we are going through 
right now in the Senate Finance Committee trying to come up 
with a consensus on trying to meet the healthcare problem 
straight on. It is very difficult.
    But I believe the President is a visionary, and I believe 
that the President is going to make a bold stroke, not unlike 
President Kennedy. He set this Nation on a course that was 
extraordinary, and it is my belief that President Obama will do 
that.
    And so, with that optimistic note, thank you, Mr. 
Augustine.
    The hearing is adjourned.
    Mr. Augustine. Thank you, Mr. Chairman.
    [Whereupon, at 4:49 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I want to thank Mr. Augustine for testifying before the 
Subcommittee today and I want to express my gratitude to him and the 
other 9 members of the Human Spaceflight Plans Committee for their 
service.
    The task of examining NASA's human spaceflight plans in a mere 90 
days is not an easy one. As the Committee states in its Summary Report, 
it is in fact rocket science. Thank you for your commitment to the 
process and its smooth progress.
    I am concerned, however, that the Committee seems to have largely 
accepted the value of human space exploration as an underlying 
assumption without ever fully discussing it.
    In this difficult budget environment where the Federal deficit sets 
new records with each passing month, our country does not necessarily 
have the resources to do everything that we want to do. The economy has 
not yet recovered, we are fighting two major wars, and we can't even 
manage to find a solution to provide healthcare for Americans.
    The review committee recommends increasing NASA's budget by an 
additional $3 billion by FY2014, then increasing it at an inflationary 
rate of 2.4 percent. We must ask, quite simply, what are the specific 
benefits to the Nation of making NASA a $22 billion agency?
    Let me be clear, I am not advocating that we abandon space 
exploration. The case, however, has not yet been made. And I think now 
would be an appropriate time to ask those tough questions and carefully 
evaluate the responses.
    This is no longer the era of Apollo and the Cold War where the 
payoffs for advancing the space and Moon agenda are entirely clear.
    The President, I am sure, will continue to struggle with these same 
questions as he reviews the Committee's findings and options. I am 
committed to making sure that together we can get the answers right.
    Again, I want to thank Mr. Augustine for his service and testimony 
today. I look forward to the Committee's final report.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Norman R. Augustine
    Question 1. Mr. Augustine, you certainly know the arguments both 
for and against investing in human space exploration at a time when the 
Nation has a large deficit and many unmet needs for people here on the 
ground. You note that intangible benefits to the Nation will accrue 
from such an investment. Yet given the billions of dollars necessary to 
reach Mars, should NASA instead focus on unmanned missions?
    Answer. The committee found that America is best served by a 
complementary and balanced space program involving both a robotic 
component and human component.

    Question 2. Mr. Augustine, the summary report you provided notes 
that NASA has an opportunity to spur the growth of the commercial space 
industry, much like the Federal Government encouraged the development 
of the aviation and commercial airline industry in the 1920s through 
the ``air mail'' program.
    New Mexico, for example, is building Spaceport USA and hosts the X 
Prize Cup. You mention that a technology development program at NASA 
could help reengage academia and private industry with NASA. How should 
NASA do more to encourage such private sector involvement in space 
exploration?
    Answer. The committee found many ways that NASA could encourage 
more private sector involvement in space exploration, namely: extending 
the life of ISS and increased support for ISS utilization; making loan 
guarantees or employ other mechanisms by which it could assure a market 
for commercial providers; more aggressively utilizing commercial 
authorities already granted to the agency; providing a potential 
government-guaranteed market for fuel in low Earth-orbit; turning the 
transport of crew to low Earth orbit over to the commercial sector; and 
investing more heavily in technology development.

    Question 2a. What NASA incentive programs for private companies 
might spur inventions and innovations that would save the agency money 
in meeting its space exploration goals?
    Answer. Other than those listed above, the committee did not 
investigate the use of any specific incentive programs.

    Question 3. Mr. Augustine, your committee's report seems to suggest 
that NASA could contract with commercial space companies to supply and 
service the International Space Station. Some private companies already 
participate in NASA's Commercial Orbital Transportation Services 
(COTS). Private firms also compete in the ``Google Lunar X Prize'' to 
land a robot on the moon. Did your panel consider the idea of having a 
``Lunar COTS'' program for commercial companies to deliver payloads to 
the moon?
    Answer. The committee did not deliberate on the concept of a 
``Lunar COTS'' program. However, that concept has been discussed in the 
media and some committee members are undoubtedly aware of it.

    Question 3a. Could competition among commercial companies for such 
contracts help lower NASA's costs of returning to the Moon and other 
destinations?''
    Answer. The committee did not specifically analyze this situation; 
but, in theory, competition among private companies for providing 
lunar-based services would most likely result in cost advantages for 
NASA.

                                  <all>

</pre></body></html>
